DOCKET NO. 20-6769
IN THE SUPREME COURT OF THE UNITED STATES
JUAN DAVID RODRIGUEZ,
Petitioner,
vs.
MARK INCH, Secretary,
Florida Department of Corrections,

Respondent.

 

CERTIFICATE OF SERVICE

I HEREBY CERTIFY that a true and correct copy of the foregoing was
furnished by mail to: Scott Gavin, Assistant CCRC-South, Capital Collateral
Regional Counsel-South, 110 SE 6th Street, Suite 701, Fort Lauderdale, Florida
33301, this 4th day of February, 2021. I further certify that all parties required to be

served have been served.

  

Li kL

CAROLYN M. SNURKOWSKI
Associate Deputy Attorney General

 

25
